                                                                                             correspondence I Appendix G I july 21, 2010   1




correspondence
This appendix provides a copy of the following correspondence:

 Correspondence
 Date          From             To                Regarding
                                Congressman       SIGTARP’s Review of Treasury’s Small Business Lending Fund
 5/17/2010     SIGTARP
                                Elijah Cummings   Act Proposal
                                                  Follow-up on SIGTARP April 2010 Quarterly Report
 5/20/2010     Treasury         SIGTARP
                                                  Recommendations on HAMP and CDCI
                                                  Follow-up on HAMP Recommendations in the SIGTARP Audit
 5/20/2010     Treasury         SIGTARP
                                                  Report
                                                  Follow-up on Warrant Disposition Recommendations in the
 6/11/2010     Treasury         SIGTARP
                                                  SIGTARP Audit Report
 6/29/2010     Treasury         SIGTARP           SIGTARP Official Draft Audit Report
                                                  Status Report on Recommendations in the SIGTARP Quarterly
 6/30/2010     Treasury         SIGTARP
                                                  Report
 7/1/2010      SIGTARP          Treasury          Treasury’s Compliance and Internal Controls Program for PPIP
 7/16/2010     Treasury         SIGTARP           Response to SIGTARP Quarterly Report to Congress
2   Appendix G I correspondence I july 21, 2010
correspondence I Appendix G I july 21, 2010   3
4   Appendix G I correspondence I july 21, 2010
correspondence I Appendix G I july 21, 2010   5
6   Appendix G I correspondence I july 21, 2010
correspondence I Appendix G I july 21, 2010   7
8   Appendix G I correspondence I july 21, 2010
correspondence I Appendix G I july 21, 2010   9
10   Appendix G I correspondence I july 21, 2010
correspondence I Appendix G I july 21, 2010   11
12   Appendix G I correspondence I july 21, 2010
correspondence I Appendix G I july 21, 2010   13
14   Appendix G I correspondence I july 21, 2010
correspondence I Appendix G I july 21, 2010   15
16   Appendix G I correspondence I july 21, 2010
correspondence I Appendix G I july 21, 2010   17
